No. 19-1231

In the Supreme Court of the United States
FEDERAL COMMUNICATIONS COMMISSION AND
UNITED STATES OF AMERICA, PETITIONERS
v.
PROMETHEUS RADIO PROJECT, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

REPLY BRIEF FOR THE PETITIONERS
JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

TABLE OF CONTENTS

Page
A. Respondents’ defense of the decision below is
unpersuasive ...................................................................... 2
B. This Court’s review is warranted .................................... 8
TABLE OF AUTHORITIES

Cases:
Air Transp. Ass’n of Am. v. Civil Aeronautics Bd.,
732 F.2d 219 (D.C. Cir. 1984) ............................................... 7
FCC v. National Citizens Comm. for Broad.,
436 U.S. 775 (1978)...................................................... 2, 5, 12
FCC v. WNCN Listeners Guild, 450 U.S. 582
(1981) .................................................................... 2, 3, 5, 8, 12
Motor Vehicle Mfrs. Ass’n of the U.S., Inc. v. State
Farm Mut. Auto. Ins. Co., 463 U.S. 29 (1983) ............... 2, 4
National Broad. Co. v. United States, 319 U.S. 190
(1943) .................................................................................. 2, 5
Prometheus Radio Project v. FCC, 373 F.3d 372
(3d Cir. 2004), as amended (June 3, 2016),
cert. denied, 545 U.S. 1123 (2005) ....................................... 9
Statutes:
Telecommunications Act of 1996,
Pub. L. No. 104-104, 110 Stat. 56;
47 U.S.C. 303 note (§ 202(h)) ......................................... 8, 11

(I)

In the Supreme Court of the United States
No. 19-1231
FEDERAL COMMUNICATIONS COMMISSION AND
UNITED STATES OF AMERICA, PETITIONERS
v.
PROMETHEUS RADIO PROJECT, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

REPLY BRIEF FOR THE PETITIONERS

The decision below vacated the Federal Communications Commission’s (FCC or Commission) comprehensive reforms of outdated media ownership rules, with
far-reaching consequences for domestic broadcast markets. The Commission first concluded in 2003 that the
ownership rules should be substantially overhauled because they inhibit beneficial combinations between
struggling traditional outlets and no longer reflect current market realities. During the ensuing period, the
Commission has repeatedly reaffirmed that position,
while at the same time adhering to its longstanding view
that potential effects on female and minority ownership
are among the factors the agency should consider in determining whether particular regulatory changes will
serve the public interest. In the Orders under review,
after a searching examination of the available evidence,
the agency concluded that reform of the ownership
(1)

2
rules is unlikely to affect female and minority ownership and that the bare possibility of an adverse effect on
such ownership is an insufficient reason to forgo regulatory changes that are otherwise highly desirable.
For the past 17 years, however, the same divided
Third Circuit panel has repeatedly thwarted the Commission’s efforts to reform its ownership rules. In the
decision below, it rejected the Commission’s reasoned
policy judgments and imposed a rigid requirement that
the Commission identify the likely effect on female and
minority ownership with some unspecified degree of
precision before any change can take effect. Respondents’ defense of that ruling largely repeats the flawed
reasoning of the court below, while ignoring this Court’s
precedents repeatedly affirming the breadth of the
FCC’s discretion to regulate in the public interest. See,
e.g., FCC v. National Citizens Comm. for Broad., 436
U.S. 775 (1978) (NCCB). Respondents’ efforts to characterize the petition for a writ of certiorari as seeking
one-off error correction are similarly unpersuasive.
The panel’s decisions have distorted the quadrennialreview process, and they will seriously impair the Commission’s ability to regulate in the public interest going
forward. This Court’s review is warranted.
A. Respondents’ Defense Of The Decision Below Is
Unpersuasive

“The scope of review under the ‘arbitrary and capricious’ standard is narrow and a court is not to substitute
its judgment for that of the agency.” Motor Vehicle
Mfrs. Ass’n of the U.S., Inc. v. State Farm Mut. Auto.
Ins. Co., 463 U.S. 29, 43 (1983). This Court has repeatedly affirmed the FCC’s broad discretion to regulate in
the public interest. See FCC v. WNCN Listeners Guild,
450 U.S. 582 (1981); NCCB, supra; National Broad. Co.

3
v. United States, 319 U.S. 190 (1943) (NBC). In the Orders under review, the agency carefully considered the
record evidence, acknowledged gaps in the available
data, and reached reasonable policy conclusions in light
of both the record and the agency’s own extensive experience. Respondents’ attacks on those Orders lack merit.
1. The court of appeals erred in treating the possibility of adverse effects on female and minority ownership as a dispositive consideration in all FCC quadrennialreview proceedings. See Pet. App. 34a. Respondents
observe that “[t]he FCC has ‘historically embraced’
ownership diversity as part of its public interest mandate, and continues to do so.” Br. in Opp. 23 (citation
omitted). But the Commission’s longstanding practice
of considering female and minority ownership as one
factor in its public-interest analysis is vastly different
from treating that consideration as an absolute prerequisite in all rulemakings. Respondents do not defend or
even address the court of appeals’ determination that
“the Commission must ascertain on record evidence the
likely effect of any rule changes it proposes * * * on
ownership by women and minorities.” Pet. App. 33a34a. The court’s ruling substantially constrains the
FCC’s “broad discretion in determining how much
weight should be given to” goals like gender and racial
diversity, “and what policies should be pursued in promoting” those goals. WNCN, 450 U.S. at 600.
2. The court of appeals also disregarded the deferential arbitrary-and-capricious standard by substituting its own judgment for the agency’s reasoned policy
analysis. See Pet. App. 28a-32a. Respondents fault the
Commission for “set[ting] forth no data about female
ownership” and relying on “a woefully inadequate ‘analysis’ of faulty data” pertaining to minorities. Br. in Opp.

4
30-31. But the Commission repeatedly solicited data
pertaining to the effects of potential rule changes on female and minority ownership. See Pet. App. 45a. When
commenters failed to submit meaningful evidence on
the subject, see id. at 33a, 45a, the Commission drew
reasonable inferences from the available data, while acknowledging the evidentiary gaps that respondents now
highlight. See, e.g., id. at 73a nn.325-326.
Noting that the FCC here made an affirmative finding of “no harm,” respondents argue that, “when agencies do rely on data, they ‘do not have free rein to use
inaccurate data.’ ” Br. in Opp. 31, 33 (citation omitted).
That argument gives insufficient weight to the agency’s
factual findings, see State Farm, 463 U.S. at 43, and reflects a misunderstanding of the FCC’s core rationale
here. Although the Commission stated several times
that modifications to the ownership rules would not
likely reduce female and minority ownership, see, e.g.,
Pet. App. 195a, its bottom-line conclusion was that it
could not “justify retaining the rule[s] * * * based on
the unsubstantiated hope that the rule[s] will promote
minority and female ownership.” Id. at 215a; see id. at
200a, 236a (similar). The agency thus reasonably concluded that, given the compelling competitive justifications for loosening the ownership rules and the absence
of meaningful data suggesting that this step would reduce female and minority ownership, the bare possibility that loosening the rules would have that adverse effect was not a sufficient reason to forgo an otherwise
beneficial regulatory change.
This Court’s precedents confirm the FCC’s discretion to make the policy choices it made here. In advancing the public interest, the Commission may “rely on its
judgment, based on experience,” “notwithstanding the

5
inconclusiveness of the rulemaking record”—particularly
when the relevant evidence “is difficult to compile” and
the potential effects of the rule changes do “ ‘not lend
themselves to detailed forecast.’ ” NCCB, 436 U.S. at
796-797 (citation omitted); see NBC, 319 U.S. at 224 (“It
is not for us to say that the ‘public interest’ will be furthered or retarded by the [regulations].”); WNCN, 450
U.S. at 600; Pet. 17-19. Respondents address NCCB
only in a parenthetical, see Br. in Opp. 33, and do not
address WNCN or NBC at all. The Third Circuit’s
methodology was flatly inconsistent with those decisions.
Finally, respondents contend that the Reconsideration Order “was a wholly unexplained about-face from
[the FCC’s] judgment in the 2016 Order that precisely
the same data did not justify relaxing the ownership
rules.” Br. in Opp. 33; see 32 FCC Rcd 9802 (Reconsideration Order) (excerpted at Pet. App. 153a-242a); 31
FCC Rcd 9864 (2016 Order) (excerpted at Pet. App. 57a152a). Respondents’ argument (see Br. in Opp. 33-34)
conflates two distinct conceptions of “ownership diversity.”
The 2016 Order retained in significant part the three
major ownership rules at issue here—the newspaper/broadcast cross-ownership rule, the radio/television
cross-ownership rule, and the local television ownership
rule—for the stated purposes of “promot[ing] competition” and “viewpoint diversity,” and “not with the purpose of preserving or creating specific amounts of minority and female ownership.” Pet. App. 63a-64a; see
31 FCC Rcd at 9944, 9951-9952. In adopting a “modest
loosening” of the newspaper/broadcast cross-ownership
rule in the 2016 Order, the Commission concluded—citing
the same data at issue here—that the record “fails to

6
demonstrate” that this change was “likely to result in
harm to minority and female ownership.” 31 FCC Rcd
at 9944. Although the 2016 Order also stated that the
ownership rules “promote[ ] opportunities for diversity,” Pet. App. 64a; see 31 FCC Rcd at 9944, 9952
(same), the Reconsideration Order explained that this
observation “did not indicate a belief that the rule[s]
would promote minority and female ownership specifically, but rather that the rule[s] would promote ownership diversity generally by requiring the separation of
[media] station ownership.” Pet. App. 199a; see id. at
215a, 236a (similar).
With respect to the general weighing of the costs and
benefits associated with the agency’s ownership rules,
the Reconsideration Order unquestionably reflected a
substantial departure from the analysis in the 2016 Order. But the agency explained in detail its reasons for
concluding that, in light of extensive changes to the media landscape, the ownership rules no longer served the
public interest. See Pet. 10. The court below did not
find that aspect of the FCC’s analysis to be deficient.
With respect to the specific issue on which the court believed that additional evidence and analysis were
required—the presence or absence of any meaningful
link between the ownership rules and minority and female ownership—the Reconsideration Order was neither an “about-face” nor “unexplained.” Br. in Opp. 33.
3. The Third Circuit compounded its errors on the
merits by invalidating the Reconsideration and Incubator Orders in full, as well as the “eligible entity” definition from the 2016 Order, even though the court’s reasoning pertained only to discrete aspects of the Reconsideration Order. See Pet. 27; see also 33 FCC Rcd 7911
(Incubator Order) (excerpted at Pet. App. 243a-272a).

7
Respondents argue (Br. in Opp. 35-37) that the Commission’s adoption of a revenue-based eligible-entity
definition and eligibility criteria depended on the
agency’s finding that repeal of the ownership rules
would not reduce female and minority ownership levels.
The Third Circuit did not endorse this proposition, and
respondents cite nothing in the Orders indicating that
the eligible-entity definition and eligibility criteria are
contingent in this way. In the same vein, respondents
suggest (id. at 36) that, in light of the FCC’s repeal of
the ownership rules, the Commission might be required
to adopt an eligible-entity definition that is “targeted
more directly to race and gender ownership diversity.”
Respondents do not engage, however, with the Commission’s extensive analysis of the constitutional limitations
on the use of race- and gender-conscious standards. See
Pet. App. 120a-133a, 136a-152a, 264a.
4. In the alternative, respondents contend that the
FCC’s analysis of ownership diversity “fail[s] for lack of
adequate notice.” Br. in Opp. 34. The Third Circuit did
not address this issue, see id. at 35, and the argument
lacks merit. The notice of proposed rulemaking was
“sufficiently descriptive of the subjects and issues involved so that interested parties [could] offer informed
criticism and comments.” Air Transp. Ass’n of Am. v.
Civil Aeronautics Bd., 732 F.2d 219, 224 (D.C. Cir.
1984) (citation and internal quotation marks omitted;
brackets in original). And even if the notice could be
deemed inadequate, the 2016 Order relied on the same
statistical analysis whose use in the Reconsideration
Order respondents attack as defective. See Pet. App.
66a-67a (comparing different data sets in rejecting “the
claim that tightening the Local Television Ownership
Rule will promote increased opportunities for minority

8
and female ownership”). Respondents therefore had an
opportunity to criticize that analysis in conjunction with
the reconsideration proceedings. Cf. WNCN, 450 U.S.
at 591 n.22 (Court did “not consider the action of the
Commission, even if a procedural lapse, to be a sufficient ground for reopening the proceedings” where the
undisclosed study in question was released before the
agency’s “denial of reconsideration”).
B. This Court’s Review Is Warranted

This Court’s review is necessary to undo the damage
that the decision below inflicts on the Nation’s broadcast markets and the Commission’s ability to respond to
market developments. Respondents characterize the
petition for a writ of certiorari as seeking backwardlooking error correction. That characterization ignores
both the context of this litigation and the court of appeals’ actual holding.
1. Section 202(h) of the Telecommunications Act of
1996, as amended, 47 U.S.C. 303 note, establishes an “iterative process” through which the FCC can keep pace
with market developments by taking “a fresh look at its
rules every four years” and reassessing “how its rules
function in the marketplace.” Pet. App. 48a (Scirica, J.,
concurring in part and dissenting in part). The Third
Circuit’s series of decisions has substantially impeded
the proper functioning of that process.
Respondents contend that, in light of the Commission’s short-lived 2016 decision to retain the ownership
rules in significant part, this case “hardly [presents] a
decades-long freezing of rules that the agency has long
wanted to jettison.” Br. in Opp. 27. But the blanket ban
on newspaper/broadcast cross-ownership has remained
in place since 1975, despite three separate FCC at-

9
tempts to repeal it. See Pet. 30. The broadcast ownership rule adopted 45 years ago cannot plausibly be
thought to reflect current market realities. See Prometheus Radio Project v. FCC, 373 F.3d 372, 398 (3d Cir.
2004), as amended (June 3, 2016) (Prometheus I), cert.
denied, 545 U.S. 1123 (2005).
In arguing that the ownership rules continue to serve
a useful purpose, respondents cite extra-record sources
for the proposition that “[b]roadcasting continues to
drive local news and content creation.” Br. in Opp. 27.
But as the Reconsideration Order found, the rules may
actually “prevent[ ] local news outlets from achieving efficiencies by combining resources.” Pet. App. 173a,
180a. And by precluding the Commission’s revised
rules from ever taking effect, the court of appeals’ repeated vacaturs have “depriv[ed] both the Commission
and Congress [of ] the valuable opportunity to evaluate
the new rules and the effects of deregulation on the media marketplace,” thus “[s]hort-circuiting” the iterative
process the statute contemplates. Prometheus I, 373
F.3d at 438 (Scirica, J., dissenting in part, concurring in
part). Respondents have no answer to this point.
2. If left in place, the Third Circuit’s decision will
also distort pending and future quadrennial reviews by
imposing a blanket requirement that the FCC determine, with some unstated degree of precision, the effect
of any change to the ownership rules on female and minority ownership. Pet. App. 34a. Respondents assert
that “no court-imposed ‘effective requirement’ demands
a precise finding on ownership diversity before altering
ownership rules.” Br. in Opp. 25-26 (brackets and citation omitted). That statement cannot be reconciled with
the Third Circuit’s unambiguous directive: “On remand
the Commission must ascertain on record evidence the

10
likely effect of any rule changes it proposes and whatever ‘eligible entity’ definition it adopts on ownership by
women and minorities, whether through new empirical
research or an in-depth theoretical analysis.” Pet. App.
34a. Respondents also assert that the court of appeals
did not “require the Commission to give any predetermined weight to ownership diversity in balancing competing policies.” Br. in Opp. 26. But by rejecting the
Commission’s conclusion that it could no longer retain
the ownership rules “based on the unsubstantiated hope
that [they] will promote minority and female ownership,” Pet. App. 215a, the court plainly elevated potential effects on female and minority ownership over other
considerations.
By requiring additional empirical analysis of ownership diversity, while preventing the regulatory changes
that would allow the agency to study the new rules’ effects, the Third Circuit’s ruling leaves the agency with
no apparent path forward. Respondents vaguely suggest that the FCC can “correct any unreliable ownership data filed, cross reference its existing comprehensive transaction data with ownership filings to fill in
gaps and improve comparisons over time, and ensure
complete reporting by broadcast licensees.” Br. in Opp.
32-33. But respondents do not explain how the tabulation of actual female and minority ownership levels—
which the FCC was already doing well before the Third
Circuit’s decision, see, e.g., Pet. App. 78a—will help the
FCC to predict the effects of innovative rule changes
that it has not been allowed to implement.
Given the Third Circuit’s distortion of ongoing and
future quadrennial-review proceedings, respondents’
plea for the Court to “allow[ ] the agency to move on and
get it right” is hard to take seriously. Br. in Opp. 29;

11
see id. at 24-29. Over the past 17 years, the Commission
has repeatedly attempted to comply with the panel’s judicially imposed standards, and each time the court of
appeals has rebuffed the agency’s effort. Remitting
the Commission to yet another round of administrative
review—to be performed in the shadow of the Third
Circuit’s critical misstatement of the governing legal
standard—would merely prolong the FCC’s inability to
fulfill its obligations under Section 202(h).
3. Finally, the Third Circuit’s continued retention of
jurisdiction, including in the decision below, see Pet.
App. 37a-38a, has effectively prevented (and will continue to prevent) other courts from addressing the
questions presented here. Respondents describe the
court of appeals’ retention of jurisdiction as “routine,”
Br. in Opp. 21 n.4, but they do not dispute that other
circuits have acceded to it and that future legal challenges falling within “the scope of the remand” will be
heard by the Third Circuit. Id. at 26. Respondents’ contention (id. at 1) that the absence of a circuit conflict
militates against certiorari therefore rings hollow.
Respondents also attempt to leverage the government’s opposition to certiorari at earlier stages of this
litigation, arguing that a “plea for pure error correction
is even less certworthy now.” Br. in Opp. 18. But the
government’s previous restraint simply confirmed its
willingness to attempt in good faith to address the
panel’s concerns. When the government opposed certiorari in 2005 and 2012, it had not yet experienced 17
years of futility in attempting to comply with the Third
Circuit’s misapprehension of the governing standards.
Nor had the court of appeals yet saddled the Commission with a rigid requirement that it ascertain, via “empirical research or an in-depth theoretical analysis,”

12
Pet. App. 34a, the future effects of any rule changes on
female and minority ownership.
The legal and practical significance of the decision
below can adequately be appreciated only by considering the cumulative effects of the court of appeals’ repeated vacatur orders issued over an extended period
of time. This Court’s review is necessary to free the
Commission from the “revolving-door review” perpetuated by the Third Circuit’s legal errors. Br. in Opp. 29.
This Court has previously granted review to preserve
the Commission’s authority to regulate in the public interest, see, e.g., NCCB, supra; WNCN, supra, and the
same course is warranted here.
* * * * *
For the foregoing reasons and those stated in the petition for a writ of certiorari, the petition should be
granted.
Respectfully submitted.
JEFFREY B. WALL
Acting Solicitor General

AUGUST 2020

